        OFFICE OF
   INSPECTOR GENERAL

Semiannual Report to Congress




April 1, 2004 – September 30, 2004
   Federal Election Commission
   999 E Street, N.W., Suite 940
     Washington, DC 20463


         November 2004
                               TABLE OF CONTENTS



EXECUTIVE SUMMARY ------------------------------------------------------- 1

FEDERAL ELECTION COMMISSION                      -------------------------------------- 7

AUDITS-------------------------------------------------------------------------          9

AUDIT FOLLOW-UP                 ------------------------------------------------------- 14

HOTLINE COMPLAINTS ------------------------------------------------------- 16

ADDITIONAL OFFICE OF INSPECTOR GENERAL
ACTIVITY ------------------------------------------------------------------------- 17

ECIE AND PCIE ACTIVITY                  ---------------------------------------------- 20

REPORTING REQUIREMENTS ---------------------------------------------- 22

TABLE I - QUESTIONED COSTS                       -------------------------------------   23

TABLE II - FUNDS PUT TO BETTER USE                       ----------------------------    24

TABLE III - SUMMARY OF AUDIT REPORTS WITH
             CORRECTIVE ACTIONS OUTSTANDING
             FOR MORE THAN SIX MONTHS     -------------------                            25

OIG STRATEGIC PLAN              ------------------------------------------------------- 26

CONTACTING THE OFFICE OF INSPECTOR
GENERAL --------------------------------------------------------------------             27




Semiannual Report to Congress - April 1, 2004 – September 30, 2004
                             EXECUTIVE SUMMARY


        This Semiannual Report to Congress issued by the Federal Election

Commission (FEC) Office of Inspector General (OIG), is submitted in

accordance with the requirements of the Inspector General Act of 1978, as

amended. This semiannual report summarizes the major activities and

accomplishments of the FEC OIG covering the reporting period of April 1,

2004 - September 30, 2004. The Executive Summary summarizes the

significant actions and achievements pertinent to the Federal Election

Commission, Office of Inspector General. In depth facts pertaining to a

particular topic can be found in subsequent sections of this report.



        To help ensure the integrity of the FEC, and to improve agency

programs and operations, the OIG is responsible for conducting, supervising,

and coordinating audits, investigations, and inspections. The OIG continues

to strive to prevent and detect fraud, waste, abuse, and mismanagement of

the Federal Election Commission’s resources and operations.



        The Federal Government has made the improvement of financial

management a high priority. Under the provisions of The Accountability of

Tax Dollars Act of 2002, the Office of Inspector General is required to audit

the agency’s financial statements annually. To prepare to meet the

requirements outlined in the Act, the FEC OIG selected Clifton Gunderson

Semiannual Report to Congress - April 1, 2004 – September 30, 2004        Page 1
(CG), LLP to perform the first financial statement audit of the Federal

Election Commission.



        The audit will include tests of the Commission’s accounting records

necessary to enable the contractors to express their opinion on the financial

statements. Tests of controls will be performed to examine the effectiveness

of certain policies and procedures that are considered relevant to preventing

and detecting errors and fraud.



        The FEC OIG involvement in the financial statement audit is critical.

The OIG, along with the contractors and FEC management officials have

been involved in a number of meetings pertaining to the financial audit.

During the planning stages of the audit, the OIG met with the contractors

and FEC management officials to discuss the financial operation of the

Commission. In addition, the contractors were provided with information

pertaining to previous financial related audits conducted by the OIG.



        Audit status meetings were conducted to discuss the progress of the

audit, as well as address any questions or concerns raised during the

fieldwork. Additional meetings were held to discuss specific accounting and

budget issues relevant to the audit. The Audit section of this report, which




Semiannual Report to Congress - April 1, 2004 – September 30, 2004         Page 2
starts on page 9, contains additional information regarding the Audit of the

FEC’s Fiscal Year 2004 Financial Statements - OIG-04-01.



        The Audit of the FEC’s Public Disclosure Process – OIG-02-03 was

initiated during a previous semiannual reporting period. The two objectives

related to this audit are to: 1) determine the extent, if any, of disclosure

differences between candidate contributions reported by political committees

and related political committee contributions reported received by

candidates; and 2) determine whether an adequate process is in place to

remedy any reporting discrepancies.



        The Office of Inspector General continues to work towards completing

the audit of the FEC public disclosure system. Steps taken to accomplish this

task consist of examining various samples of campaign transactions through

the disclosure system. These steps include analyzing, reviewing, and

comparing balances of candidate receipts vs. political committee

disbursements of campaign finance contributions. Campaign regulations

were reviewed to determine the recording requirements for in-kind

contributions, as well as the mandated responsibilities of the committee

treasurer. For detailed information pertaining to the audit of the agency’s

public disclosure system, see page 12.




Semiannual Report to Congress - April 1, 2004 – September 30, 2004             Page 3
        The OIG conducted a follow-up assessment on the audit entitled

Agency Controls Governing the Process for Procurement of Vendor Training

Services – OIG-00-01, released September, 2000. The audit was originally

conducted to evaluate the effectiveness and efficiency of management

controls governing the process for procurement of training services obtained

through outside vendors.



        During this reporting period, the OIG contacted management to

determine whether or not corrective actions had been taken to rectify the

outstanding audit recommendations. As a result of the follow-up assessment,

the OIG concluded that management had taken the necessary steps required

to close the audit recommendations. For additional information as it pertains

to the follow-up assessment, see page 14 located in the Audit Follow-up

section of this report.



        The Inspector General provides necessary oversight and serves as a

catalyst for improving and maximizing the efficiency and integrity of FEC

programs and operations. The OIG is authorized to receive and investigate

complaints concerning possible violation of laws, rules or regulations,

mismanagement, abuse of authority, and waste of funds. These

investigations are in response to allegations, complaints, and information

received from FEC employees and other concerned individuals.



Semiannual Report to Congress - April 1, 2004 – September 30, 2004        Page 4
        The number of investigative inquires processed by the OIG increased

during this reporting period. Several individuals contacted the OIG to

discuss their concerns about matters involving possible violations of fraud,

waste, abuse, or mismanagement of FEC programs and operations. For

detailed information with regards to the hotline inquiries, see the section

entitled Hotline Complaints which is located on page 16.



        Besides conducting audits, investigations, and reviews, the IG staff is

involved in a wide range of additional activities. The items below outline

some of the additional assignments taken on by the IG staff during this

reporting period. For complete information with regards to the additional

activities of the FEC OIG, refer to page 17, the section entitled Additional

Office of Inspector General Activity.



            •   Prior to the end of this reporting period, the OIG initiated a peer

                review of the Federal Housing Finance Board (FHFB), Office of

                Inspector General. The General Accountability Office’s

                Government Auditing Standards, requires that a peer review be

                conducted every three years on organizations that conduct

                government audits. A peer review, also referred to as an

                external quality review, is a review of an audit organization by



Semiannual Report to Congress - April 1, 2004 – September 30, 2004           Page 5
                an organization not affiliated with the audit organization being

                reviewed (see page 18).



            •   The Inspector General continues to serve as a representative to

                the Executive Council on Integrity and Efficiency (ECIE).

                During this reporting period, the IG served as chairman of the

                2004 ECIE awards review panel committee (see page 19).




Semiannual Report to Congress - April 1, 2004 – September 30, 2004          Page 6
                THE FEDERAL ELECTION COMMISSION

        In 1975, Congress created the Federal Election Commission (FEC) to

administer and enforce the Federal Election Campaign Act (FECA) - the

statute that governs the financing of federal elections. The duties of the

FEC, which is an independent regulatory agency, is to disclose campaign

finance information; enforce the provisions of the law such as the limits and

prohibitions on contributions; and oversee the public funding of Presidential

elections.


        The Commission is made up of six members, who are appointed by the

President and confirmed by the Senate. Each member serves a six-year term,

and two seats are subject to appointment every two years. By law, no more

than three Commissioners can be members of the same political party, and at

least four votes are required for any official Commission action. This

structure was created to encourage nonpartisan decisions. The

Chairmanship of the Commission rotates among the members each year,

with no member serving as Chairman more than once during his or her term.


                     OFFICE OF INSPECTOR GENERAL


        The Inspector General Act of 1978 (P.L. 100-504), as amended in 1988,

states that the Inspector General is responsible for: 1) conducting and



Semiannual Report to Congress - April 1, 2004 – September 30, 2004           Page 7
supervising audits and investigations relating to the Federal Election

Commission’s programs and operations; 2) detecting and preventing fraud,

waste, and abuse of agency programs and operations while providing

leadership and coordination; 3) recommending policies designed to promote

economy, efficiency, and effectiveness of the establishment; and 4) keeping

the Commissioners and Congress fully and currently informed about

problems and deficiencies in FEC agency programs and operations, and the

need for corrective action.



        Congress created Offices of Inspectors General to improve

management of programs and to prevent fraud, waste, and abuse in federal

departments and agencies. This is accomplished through audits,

investigations, and other reviews. The IG’s office is currently staffed with

four full time employees - the Inspector General, Lynne A. McFarland, two

Auditors, and a Special Assistant to the Inspector General.




Semiannual Report to Congress - April 1, 2004 – September 30, 2004        Page 8
                                          AUDITS


TITLE:                          Audit of the FEC’s Fiscal Year 2004 Financial
                                Statements

ASSIGNMENT #:                   OIG – 04-01

RELEASE DATE:                   In Progress

PURPOSE:                        The Federal Government has made the

improvement of financial management a high priority. Under the provisions

of The Accountability of Tax Dollars Act of 2002, the Office of Inspector

General is required to audit the agency’s financial statements annually. In

our efforts to prepare to meet the requirements outlined in the Act, Clifton

Gunderson LLP, an independent CPA firm selected by the FEC/OIG, will

perform the first financial statement audit of the Federal Election

Commission.



        The audit will include tests of the Commission’s accounting records

necessary to enable the contractors to express their opinion on the financial

statements. Tests of controls will be performed to examine the effectiveness

of certain policies and procedures that are considered relevant to preventing

and detecting errors and fraud.




Semiannual Report to Congress - April 1, 2004 – September 30, 2004              Page 9
        The FEC OIG involvement in the financial statement audit is critical.

The OIG, along with the contractors and FEC management officials have

been involved in a number of meetings pertaining to the financial audit.

During the planning stages of the audit, the OIG met with the contractors

and FEC management to discuss the financial operation of the Commission.

The contractors were provided with information pertaining to previous

financial related audits conducted by the OIG.



        Audit status meetings were conducted to discuss the progress of the

audit, as well as address any questions or concerns in reference to the audit.

The audit status meeting is a forum for management and the auditors to

discuss the progress of the audit. The audit status meetings also included

discussions regarding the prepared by client (PBC) list, which is a list that

documents the date and time frame of information requested by the

contractors, and when management is due to provide such information. The

audit status meetings are on going.



        The OIG also coordinated and attended meetings with the contractors

and representatives from the FEC Information Technology (IT) Division to

discuss the IT system controls such as the controls governing major

applications used by the FEC. Additional meetings were held with

management to discuss accounting and budget issues relevant to the audit.



Semiannual Report to Congress - April 1, 2004 – September 30, 2004        Page 10
        During this time frame, several documents were reviewed by the OIG,

such as the planning document submitted by the contractors. The planning

document is the first contract deliverable that documents the planning and

understanding phase of the audit. The OIG also reviewed the FEC Office of

General Counsel’s September 7, 2004 opinion on the applicability of federal

laws and regulations, as they relate to the FEC and the financial statement

audit. The OIG will continue working with the CG contractors to successfully

complete the first financial statement audit of the FEC.




Semiannual Report to Congress - April 1, 2004 – September 30, 2004     Page 11
AUDIT


TITLE:                          Audit of the FEC’s Public Disclosure Process

ASSIGNMENT #:                   OIG – 02-03

RELEASE DATE:                   In Progress

PURPOSE:                        The two objectives of this audit are to: 1)

determine the extent, if any, of disclosure differences between candidate

contributions reported by political committees and related committee

contributions reported received by candidates; and 2) determine whether an

adequate process is in place to remedy any reporting discrepancies.



        The Office of Inspector General continues to work towards completing

the audit of the FEC public disclosure system. Steps taken to accomplish this

task consist of examining various samples of campaign transactions through

the disclosure system. Specific steps include analyzing, reviewing, and

comparing balances of candidate receipts vs. political committee

disbursements of campaign finance contributions. Campaign regulations

were also researched to determine the recording requirements for in-kind

contributions, as well as the mandated responsibilities of the committee

treasurer.




Semiannual Report to Congress - April 1, 2004 – September 30, 2004             Page 12
        Additional work included the examination of disclosure process

narratives and flowcharts to determine whether the process compares

candidate and political committee reports for in-kind contributions given by

political committees that are not reported by candidates. In addition, various

meetings were conducted to observe the Reports Analysis Division’s (RAD)

campaign finance report review process for authorized and unauthorized

campaign committees.



        An extensive review of RAD’s Operational Procedures and Training

Manual was initiated to identify specific procedures in place to detect

variances in political action committee and candidate committee data. Data

was collected for the development of spreadsheets that will aid in identifying

variances in campaign data reported for the 2002 and current election cycles.




Semiannual Report to Congress - April 1, 2004 – September 30, 2004        Page 13
                                 AUDIT FOLLOW-UP


TITLE:                          Agency Controls Governing the Process for
                                Procurement of Vendor Training Services

ASSIGNMENT #:                   OIG - 00-01

RELEASE DATE:                   September, 2000

WEBSITE ADDRESS:                http://www.fec.gov/fecig/training.pdf

PURPOSE:                        The OIG conducted a follow-up assessment on the

audit entitled Agency Controls Governing the Process for Procurement of

Vendor Training Services – OIG - 00-01, released September, 2000. The

audit was originally conducted to evaluate the effectiveness and efficiency of

management controls governing the process for procurement of training

services obtained through outside vendors. The report initially contained

seven audit recommendations, three were closed during a prior reporting

period, and four remained outstanding.



        As part of the follow-up process the OIG has in place, management is

contacted prior to the end of the semiannual reporting period to determine

the status of any outstanding recommendations (if applicable). During this

reporting period the OIG contacted management to determine whether or not

corrective actions had been taken to rectify the outstanding audit

recommendations.


Semiannual Report to Congress - April 1, 2004 – September 30, 2004          Page 14
        In three of the four outstanding recommendations, management had

taken the necessary steps to enable the OIG to close those three.

Management disagreed with the fourth outstanding recommendation, which

recommended that a computer based system be developed to replace the

current paper based system for requesting and acquiring vendor training

services. Even though the OIG continues to believe an electronic system

would be more efficient, this recommendation has been closed. All

recommendations pertaining to this audit have now been closed.




Semiannual Report to Congress - April 1, 2004 – September 30, 2004    Page 15
                             HOTLINE COMPLAINTS


        The number of investigative inquiries processed by the Office of

Inspector General increased during this reporting period. Several

individuals contacted the OIG to discuss their concerns about matters

involving possible violations of fraud, waste, abuse or mismanagement of

FEC programs and operations. Those contacts were made through the OIG

e-mail account, phone, and mail.



        According to the OIG’s Procedures for Processing Hotline Calls, a

preliminary inquiry must be conducted on all allegations raised in a hotline

complaint. If the OIG decides a full investigation is necessary, then the

hotline complaint file is closed and a separate investigative file is opened.

The IG has a policy to protect the legal rights of complainants and

whistleblowers. In addition, the OIG takes great care not to disclose the

identity of the complainant without that person’s consent.



        Currently there are four (4) hotline complaints pending, and one (1)

investigation in progress. The OIG closed two (2) hotline complaints during

this time frame.




Semiannual Report to Congress - April 1, 2004 – September 30, 2004          Page 16
 ADDITIONAL OFFICE OF INSPECTOR GENERAL ACTIVITY


        All legislation, as compiled by the Commission’s Congressional Affairs

Office, was reviewed by the Inspector General, as required by the Inspector

General Act of 1978, as amended. The Inspector General reviews and

comments, when appropriate, on all legislation provided by the PCIE/ECIE

Legislative Committee. In addition, the Inspector General routinely reads all

Commission agenda items and attends the Finance Committee meetings.



    •   During the previous semiannual reporting period, the OIG conducted

        research on a legislative provision pertaining to the Consolidated

        Appropriations Act of 2004. As directed by the Rural Development Act

        of 1972, the Inspectors General of each applicable department or

        agency are required to report to Congress the policies and procedures

        in place that give priority to the location of new offices and other

        facilities in rural areas. During this reporting period, a letter was sent

        to the Committee on Appropriations in response to the legislation. As

        stated in our reply to the Committee, the OIG has concluded that the

        requirement for a policy regarding the location of new offices and other

        facilities in rural areas is not applicable to the FEC.




Semiannual Report to Congress - April 1, 2004 – September 30, 2004             Page 17
    •   Prior to the end of this reporting period, the OIG initiated a peer

        review of the Federal Housing Finance Board (FHFB) Office of

        Inspector General. The General Accountability Office’s Government

        Auditing Standards, requires that a peer review be conducted every

        three years on organizations that conduct government audits. A peer

        review, also referred to as an external quality review, is a review of an

        audit organization by an organization not affiliated with the audit

        organization being reviewed.



        A Memorandum of Understanding (MOU) between the FEC OIG and

        the FHFB OIG was prepared and signed. The MOU was developed to

        assure that there is a mutual understanding between the two OIGs

        regarding the fundamental aspects of the review. In order to prepare

        for the review, the revised Guide for Conducting External Quality

        Control Reviews of the Audit Operations of Offices of Inspector

        General was reviewed and analyzed.



        As part of the peer review process, the FHFB OIG’s recent Semiannual

        Report to Congress, two annual audit plans, the audit tracking system,

        and the continuing education summaries for the auditors have been

        reviewed. In addition, two audits from the FHFB OIG were selected to

        be evaluated during the peer review process. The FEC OIG anticipates



Semiannual Report to Congress - April 1, 2004 – September 30, 2004            Page 18
        completing the peer review during the course of the next reporting

        period.



    •   The Inspector General continues to serve as a representative to the

        Executive Council on Integrity and Efficiency (ECIE). During this

        reporting period, the IG served on the 2004 ECIE awards review panel

        committee. In this capacity the IG was required to review and

        evaluate the nominations for the ECIE awards. The ECIE recognizes

        outstanding performance and commitment to the work of the

        community and the Federal Government in its annual awards

        program.




Semiannual Report to Congress - April 1, 2004 – September 30, 2004       Page 19
                           ECIE AND PCIE ACTIVITY


        The Executive Council on Integrity and Efficiency was established by

Executive Order on May 11, 1992. It consists of Designated Federal Entity

Inspectors General and representatives of the Office of Government Ethics,

the Office of Special Counsel, the Federal Bureau of Investigation and the

Office of Management and Budget.



        The Commission’s Inspector General is an active member of the

Executive Council on Integrity and Efficiency (ECIE) and has provided input

to a number of initiatives proposed by the Council. The ECIE serves as a

forum for the exchange of views for the Inspector General Community. The

Council identifies, reviews, and discusses issues that are of interest to the

entire IG Community. The IG attended regular meetings held by the ECIE,

and joint meetings of the President’s Council on Integrity and Efficiency

(PCIE) and the Executive Council on Integrity and Efficiency.



        For the period April 1, 2004 through September 30, 2004, the Inspector

General (or staff) attended the following training, meetings, programs,

seminars and/or conferences:

        •   ECIE - Monthly Meetings

        •   PCIE - Financial Statement Audit Network (FSAN) Meetings

Semiannual Report to Congress - April 1, 2004 – September 30, 2004        Page 20
        •   PCIE - Government Performance and Results Act (GPRA)
            Roundtable Discussion

        •   Southeastern Intergovernmental Audit Forum – 15th Biennial
            Forum of Government Auditors Conference

        •   Federal Audit Executive Committee (FAEC) – Information
            Technology Security Committee (ITSC) Meeting

        •   Association of Government Accountants (AGA) – Success in
            Accelerating Financial Statement Reporting

        •   Government Executive – Excellence in Government 2004: Leading
            When it Matters Most Conference

        •   USDA Graduate School – Government Auditing Standards: Review
            & Update

        •   Federal Election Commission – Administrative Liaison Meeting

        •   Federal Election Commission – Civil Service Retirement System
            (CSRS)




Semiannual Report to Congress - April 1, 2004 – September 30, 2004       Page 21
IG ACT                  REPORTING REQUIREMENTS                                            PAGE



Reporting requirements required by the Inspector General Act of 1978, as amended by
the Inspector General Act Amendments of 1988 are listed below:


Section 4(a)(2)         Review of Legislation----------------------------------------------17

Section 5(a)(1)         Significant Problems, Abuses, and
                        Deficiencies------------------------------------------------------None

Section 5(a)(2)         Recommendations with Respect to
                        Significant Problems, Abuses, and
                        Deficiencies------------------------------------------------------None

Section 5(a)(3)         Recommendations Included in Previous
                        Reports on Which Corrective Action Has
                        Not Been Completed-(Table III) -------------------------------25

Section 5(a)(4)         Matters Referred to Prosecutive
                        Authorities------------------------------------------------------None

Section 5(a)(5)         Summary of Instances Where Information
                        was Refused----------------------------------------------------None

Section 5(a)(7)         Summary of Significant Reports---------------------------------9

Section 5(a)(8)         Questioned and Unsupported Costs-(Table I)----------------23

Section 5(a)(9)         Recommendations that Funds be put
                        to Better Use (Table II)------------------------------------------24

Section 5(a)(10)        Summary of Audit Reports issued before
                        the start of the Reporting Period for which
                        no Management Decision has been made-------------------N/A

Section 5(a)(11)        Significant revised Management Decisions-----------------N/A

Section 5(a)(12)        Management Decisions with which the
                        Inspector General is in Disagreement-----------------------None




Semiannual Report to Congress - April 1, 2004 – September 30, 2004                        Page 22
                                           TABLE I

                   INSPECTOR GENERAL ISSUED REPORTS
                        WITH QUESTIONED COSTS

                                                          DOLLAR VALUE (in thousands)

                                                         QUESTIONED     UNSUPPORTED
                                         NUMBER             COSTS           COSTS



A. For which no management                  0                    0             [0]
   decision has been made by
   commencement of the reporting
   period


B. Which were issued during                 0                    0            [0]
   the reporting period

        Sub-Totals (A&B)                    0                    0            [0]


C. For which a management                   0                    0            [0]
   decision was made during
   the reporting period

        (i) Dollar value of disallowed      0                    0            [0]
            costs

        (ii) Dollar value of costs          0                    0            [0]
             not disallowed


D. For which no management                  0                    0            [0]
   decision has been made by the
   end of the reporting period


E. Reports for which no management          0                    0            [0]
   decision was made within
   six months of issuance




Semiannual Report to Congress - April 1, 2004 – September 30, 2004                  Page 23
                                          TABLE II

         INSPECTOR GENERAL ISSUED REPORTS WITH
     RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE



                                                         NUMBER      DOLLAR VALUE
                                                                      (in thousands)



A.      For which no management                             0              0
        decision has been made by
        the commencement of the
        reporting period

B.      Which were issued during                            0              0
        the reporting period

C.      For which a management                              0              0
        decision was made during
        the reporting period

        (i)     dollar value of                             0              0
                recommendations
                were agreed to by
                management

                based on proposed                           0              0
                management action

                based on proposed                           0              0
                legislative action

        (ii)    dollar value of                             0              0
                recommendations
                that were not agreed
                to by management

D.      For which no management                             0              0
        decision has been made by
        the end of the reporting period

E.      Reports for which no                                0              0
        management decision
        was made within six months
        of issuance




Semiannual Report to Congress - April 1, 2004 – September 30, 2004                 Page 24
                                          TABLE III

    SUMMARY OF AUDIT REPORTS WITH CORRECTIVE ACTIONS
        OUTSTANDING FOR MORE THAN SIX MONTHS



                                                                     Recommendations


                                Report           Issue
Report Title                    Number           Date            Number    Closed Open

Agency Controls                  00-01           09/00               7      7       0
Governing the Process
for Procurement of Vendor
Training Services




Semiannual Report to Congress - April 1, 2004 – September 30, 2004                Page 25
                                                                        FEC / OIG Strategic Plan
                                                           OIG Process: To develop and implement                            OIG Staff: To maintain a skilled and motivated
 OIG Products: To provide products and
                                                           processes, policies, and procedures to ensure                    work force in an environment that fosters
 services that promote positive change in
                                                           the most effective and appropriate use of OIG                    accountability, communications, teamwork, and
 FEC policies, programs, and operations.
                                                           resources in support of our people and products.                 personal and professional growth.


 Objective A: Deliver timely, high-quality                                                                                  Objective A: Attract and retain well-qualified,
 products and services that promote                                                                                         diverse and motivated employees.
 positive change.                                            Objective A: Maintain a dynamic strategic
                                                             planning process.                                              Strategy:
                                                                                                                            - develop and implement a comprehensive recruiting program
 Strategy:                                                                                                                  that attracts a broad population with the knowledge, skills,
 - establish common OIG standards for communicating          Strategy:
                                                                                                                            abilities, and expertise necessary to make meaningful
 results;                                                    - periodically review and update the strategic plan to
                                                                                                                            contributions to the OIG;
 - conduct quality assurance programs;                       address changing OIG and FEC priorities; and,
                                                                                                                            - assess employee satisfaction and develop strategies to address
 - solicit appropriate internal and external review and      - identify factors that influence organizational change and
                                                                                                                            employee concerns;
 comment;                                                    develop short and long term plans to address them.
                                                                                                                            - identify reasons for staff departures and develop plans to foster
 - comply with applicable statutory guidelines and                                                                          greater staff retention; and,
 standards;                                                                                                                 - adhere to EEO principles and strive to maintain a diverse work
 - set realistic and appropriate milestones.                                                                                force.

 Objective B: Address priority issues and
 concerns of the Commission, Congress,
                                                             Objective B: Plan and conduct cost-
 and Management.
                                                             effective work that address critical issues                    Objective B: Provide training and developmental
 Strategy:     Perform work that supports;                   and results in positive change.                                opportunities to employees.
 - Federal Election Commission and Congressional
 priorities;                                                 Strategy:                                                      Strategy:
 - National Performance Review objectives;                   - solicit FEC and Congressional input in planning OIG          - assess training needs in relation not only to employee but also
 - Strategic Management Initiative efforts;                  activities;                                                    office needs as well;
                                                             - develop internal planning mechanisms to support FEC          - ensure that Government Auditing Standards in relation to
 Focus OIG attention in the following areas of emphasis:     goals and priorities;                                          training are adhered to; and,
 - managing change;                                          - ensure that priorities of IG are effectively communicated;   - maintain a reporting system to ensure that educational
 - resource allocation in relation to policy objectives;     and,                                                           requirements are met.
 - delivery of client service;                               - identify specific targets for OIG review that are the most
 - causes of fraud and inefficiency; and,                    cost-effective
 - automation and communication.



                                                             Objective C: Identify customer needs and
                                                             provide products and services to meet
 Objective C: Follow-up and evaluate                         them.                                                          Objective C: Assess, recognize, and reward,
 results of OIG products and services to                                                                                    when possible, performance that contributes to
 assess their effectiveness in promoting                     Strategy:                                                      achieving the OIG mission.
 positive change.                                            - establish new customer feed back mechanisms;
                                                             - consider and evaluate customers feedback when                Strategy:
                                                             planning and developing products and services;
 Strategy:                                                   - respond to Congressional inquires and request for
                                                                                                                            - develop and articulate expectations for each employee's
 - Identify, as appropriate, lessons learned to improve                                                                     performance, including contributions in meeting the mission &
                                                             briefing and testimony;
 timeliness and quality; and,                                                                                               goals of the OIG; and,
                                                             - promote open exchange of ideas and information through
 - conduct follow-up reviews to determine if intended                                                                       - ensure that rewards, when possible, are given in recognition of
                                                             outreach and through use of e-mail; and,
 results have been achieved.                                                                                                exceptional employee performance.
                                                             - receive, evaluate, and respond, as appropriate, to
                                                             information received through the OIG hotline and other
                                                             sources.


 Objective D: Satisfy customers,                             Objective D: Implement efficient, effective,
 consistent with the independent nature of                                                                                  Objective D: Create and maintain a working
                                                             and consistent resolution and follow-up                        environment that promotes teamwork and
 the OIG.                                                    procedures.                                                    effective communication.
 Strategy:                                                   Strategy:
 - establish professional communication and interaction                                                                     Strategy:
                                                             - ensure that IG follow-up procedures are followed and that
 with customers to promote the open exchange of ideas;                                                                      - ensure that communications between employees is open; and,
                                                             management is aware of their role in the process; and,
 - incorporate customer feedback, as appropriate; and,                                                                      - provide employees with the tools and incentives they need to
                                                             - establish common OIG standards for terminology, date
 - be open to customer-generated solutions and                                                                              adequately perform their duties.
                                                             maintenance and communications.
 options.


                                                             Objective E: Establish a positive and
                                                             productive working environment.

                                                             Strategy:
                                                             - reengineer or streamline OIG procedures to achieve the
                                                             most effective use of resources; and,
                                                             - ensure that necessary technologies, evolving and
                                                             otherwise, are made available to staff as needed.



 Performance Measures: Determine the
 timeliness and quality of products and                      Performance Measures: An annual audit                          Performance Measures: All employees meet
 services; their effectiveness in promoting                  plan is issued; strategic plan is periodically                 the training requirements; all employees have
 positive change; and, reach agreement                       reviewed; and, necessary technology is                         performance standards; and, all employees meet
 with management on at least 90% of                          provided to staff to enable them to most                       the basic requirements for the position in which
 recommendations within six months of                        efficiently perform their duties.                              they were hired to perform.
 the report issue date.




Semiannual Report to Congress – April 1, 2004 – September 30, 2004                                                                                                       Page 26
    CONTACTING THE OFFICE OF INSPECTOR GENERAL

The success of the OIG mission to prevent fraud, waste, and abuse depends on
the cooperation of FEC employees (and the public). There are several ways to
report questionable activity.




        Call us at 202-694-1015 or toll-free 1-800-424-9530. A confidential or
        anonymous message can be left 24 hours a day/7 days a week.




        Write or visit us - we are located at:           Federal Election Commission
                                                         Office of Inspector General
                                                         999 E Street, N.W., Suite 940
                                                         Washington, DC 20463

                                           Mail is opened by OIG staff members only.




                         You can also contact us by e-mail at: oig@fec.gov.
                         Our Website address: http://www.fec.gov/fecig.htm.

Individuals may be subject to disciplinary or criminal action for knowingly
making a false complaint or providing false information.




Semiannual Report to Congress - April 1, 2004 – September 30, 2004                Page 27
